No. ______
In the

Supreme Court of the United States
__________________
SNODGRASS-KING PEDIATRIC DENTAL ASSOCIATES,
P.C. AND DAVID J. SNODGRASS, D.D.S.,
Petitioners,
v.
DENTAQUEST USA INSURANCE CO., INC.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ROBERT J. WALKER
BUTLER SNOW LLP
The Pinnacle at
Symphony Place
150 Third Avenue South
Suite 1600
Nashville, Tennessee 37201
(615) 651-6700
bob.walker@butlersnow.com

LUTHER T. MUNFORD
Counsel of Record
BUTLER SNOW LLP
1020 Highland Colony Parkway
Suite 1400
Ridgeland, Mississippi 39157
(601) 948-5711
luther.munford@butlersnow.com

Counsel for Petitioners
November 25, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Petitioners Snodgrass-King Pediatric Dental
Associates, P.C., and David J. Snodgrass, D.D.S.,
(collectively, “Snodgrass-King”) sued Respondent
DentaQuest USA Insurance Co., Inc. (“DentaQuest”)
because it excluded Snodgrass-King from Tennessee’s
state Medicaid program (“TennCare”) in retaliation for
Snodgrass-King’s exercise of its First Amendment
rights in violation of 42 U.S.C. § 1983 (“Section 1983”).
The jury determined that DentaQuest acted “under
color of state law,” i.e., engaged in state action, because
TennCare “significantly encouraged” DentaQuest’s
exclusion of Snodgrass-King, a longtime political
enemy of TennCare and DentaQuest. The jury’s
conclusion was based on internal DentaQuest emails
that recounted a private meeting in which TennCare
directed DentaQuest that it needed to “keep
[Snodgrass-King] out” of TennCare if DentaQuest
wanted to be awarded a lucrative contract with
TennCare.
The district court set aside the jury’s verdict, and
the Sixth Circuit affirmed that decision in a 2-1
decision.
The question presented is:
1. Whether a government directive made to a
private contractor while the contractor is bidding on a
lucrative and admittedly important government
contract can constitute “significant encouragement,”
and, thus, state action under Blum v. Yaretsky, 457
U.S. 991 (1982), or whether the government must
require the decision or otherwise take away the free-

ii
will choice of the private actor to create state action, as
held by the Sixth Circuit majority below.

iii
PARTIES TO THE PROCEEDING
Petitioners Snodgrass-King Pediatric Dental
Associates, P.C., and David J. Snodgrass, D.D.S., were
the plaintiffs in the district court and the appellants in
the Sixth Circuit.
Respondent DentaQuest Insurance Co., Inc. was the
defendant in the district court and the appellee in the
Sixth Circuit.
LIST OF DIRECTLY RELATED PROCEEDINGS
There are no proceedings that are directly related to
this case.

iv
CORPORATE DISCLOSURE STATEMENT
Pursuant to SUP. CT. R. 29.6, Petitioners disclose as
follows:
1. Are any of the parties to this petition a
subsidiary or affiliate of a publicly owned corporation?
No.
2. Is there a publicly owned corporation, not a
party to this petition, that has a financial interest in
the outcome? No.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . iii
LIST OF DIRECTLY RELATED
PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
A. Factual Background and Trial . . . . . . . . . . . . 4
B. The District Court Finds No State Action . . 12
C. The Sixth Circuit Affirms, Holding
that DentaQuest Did Not Engage in State
Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
D. Circuit Judge Ralph B. Guy, Jr. Dissents . . 14
E. Proceedings after decision. . . . . . . . . . . . . . . 15
REASONS FOR GRANTING THE WRIT. . . . . . . . 16

vi
I. The Sixth Circuit’s Decision Improperly
Abrogates the “Significant Encouragement”
Portion of the Blum Standard and Creates
Varying Standards for State Action Amongst the
Circuits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(June 11, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Middle District of Tennessee
Nashville Division
(February 23, 2018) . . . . . . . . . . App. 27
Appendix C Order Denying Rehearing and
Rehearing En Banc in the United
States Court of Appeals for the Sixth
Circuit
(August 29, 2019) . . . . . . . . . . . . App. 86

vii
TABLE OF AUTHORITIES
CASES
Blum v. Yaretsky,
457 U.S. 991 (1982). . . . . . . . . . . . . . . . . . . passim
Brentwood Academy v. Tenn. Secondary School
Athletic Ass’n, 531 U.S. 288 (2001) . . . . . . . . . . 16
Burton v. Wilmington Parking Auth.,
365 U.S. 715 (1961). . . . . . . . . . . . . . . . . . . . . . . 16
Campbell v. PMI Food Equip. Grp., Inc.,
509 F.3d 776 (6th Cir. 2007). . . . . . . . . . . . . 13, 18
Chernin v. Lyng,
874 F.2d 501 (8th Cir. 1989). . . . . . . . . . . . . 17, 19
Harvey v. Plains Tp. Police Dept.,
635 F.3d 606 (3d Cir. 2011) . . . . . . . . . . . . . 17, 20
Howard Gault Co. v. Texas Rural Legal Aid, Inc.,
848 F.2d 544 (5th Cir. 1988). . . . . . . . . . . . . . . . 18
Lugar v. Edmondson Oil Co., Inc.,
457 U.S. 922 (1982). . . . . . . . . . . . . . . . . . . . . . . 16
Mentalovos v. Anderson,
249 F.3d 301 (4th Cir. 2001). . . . . . . . . . . . . . . . 17
National Collegiate Athletic Ass’n v. Tarkanian,
488 U.S. 179 (1988). . . . . . . . . . . . . . . . . . . . . . . 20
Roberts v. AT&T Mobility LLC,
877 F.3d 833 (9th Cir. 2017). . . . . . . . . . . . . . . . 17
S.H.A.R.K. v. Metro Parks Serving Summit Cnty.,
499 F.3d 553 (6th Cir. 2007). . . . . . . . . . . . . . . . 18

viii
San Fancisco Arts & Athletics, Inc. v. U.S.
Olympic Committee, 483 U.S. 522 (1987) . . . . . 16
Sanchez v. Pereira-Castillo,
590 F.3d 31 (1st Cir. 2009) . . . . . . . . . . . . . . . . . 17
Skinner v. Railway Labor Executives’ Ass’n,
489 U.S. 602 (1989). . . . . . . . . . . . . . . . . . . . . . . 17
Tancredi v. Metropolitan Life Ins. Co.,
316 F.3d 308 (2d Cir. 2003) . . . . . . . . . . . . . . . . 17
Wasatch Equality v. Alta Ski Lifts Co.,
820 F.3d 381 (10th Cir. 2016). . . . . . . . . . . . . . . 17
Wilcher v. City of Akron,
498 F.3d 516 (6th Cir. 2007). . . . . . . . . . . . . . . . 18
Wolotsky v. Huhn,
960 F.2d 1331 (6th Cir. 1992). . . . . . . . . . . . . . . 19
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4
RULE
SUP. CT. R. 13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

1
PETITION FOR WRIT OF CERTIORARI
This case is an ideal vehicle for the Court to resolve
conflicting interpretations of this Court’s test for state
action in Blum v. Yaretsky, 457 U.S. 991, 1004 (1982),
which provides that a private actor’s decision may be
considered state action where the State “has exercised
coercive power or has provided such significant
encouragement, either overt or covert, that the choice
[of a private actor] must in law be deemed to be that of
the State.” The Court left open how narrowly or widely
such language should be interpreted, recognizing that
“the factual setting of each case will be significant.” Id.
Since Blum was decided, state and local
governments increasingly have relied on private
contractors rather than government employees to
administer important government programs. In this
case, for instance, TennCare contracted with
DentaQuest to administer the entirety of Tennessee’s
dental Medicaid program, including selection of the
only dental providers who would be allowed to provide
care to TennCare patients. The growth in government
contracts has raised new situations where courts must
determine whether a private contractor’s actions
should be deemed state action. This case provides a
perfect example of why the state action test described
above should remain strong with the widespread
growth of government contracting – to ensure that the
government cannot use the allure of lucrative contracts
to convince private contractors to carry out
unconstitutional goals. This question is especially
important where, as in this case, the constitutional
right is that of free speech, and specifically the right to

2
criticize the government about the way that it
administers its programs.
The question here is whether the “significant
encouragement” discussed in Blum includes a covert
governmental directive to exclude a critic from a
government program when such directive is given to a
contractor during a meeting to discuss the contractor
potentially obtaining a multimillion-dollar contract to
run that same government program.
The jury in this case found that such a directive,
made at a meeting between high-ranking TennCare
and DentaQuest employees while discussing an
admittedly important contract to DentaQuest,
significantly encouraged DentaQuest’s exclusion of
Snodgrass-King from TennCare, and, thus, constituted
state action.
In a 2-1 decision, the Sixth Circuit majority
disagreed. While the majority acknowledged that
internal DentaQuest emails showed that TennCare had
told DentaQuest that it wanted Snodgrass-King kept
out of the TennCare program, it nonetheless concluded
that such a directive legally was not the sort of
“significant encouragement” referred to in Blum
because (1) the incentive of a prospective contract is not
sufficient to show significant encouragement; and
(2) TennCare did not “require” the exclusion or
otherwise prevent DentaQuest from making a “free-will
choice.” (App. 18-23).
This Court should grant certiorari because the Sixth
Circuit majority’s decision abrogates the “significant
encouragement” portion of the state action standard set

3
forth in Blum. In effect, the majority’s decision permits
a finding of state action only where a party presents
direct evidence that the government required a
private actor to take the unlawful action at issue. Such
a rule is not only contrary to the plain language from
Blum and the application of Blum’s test in other
Circuits, but also runs afoul of the very purpose of the
state action inquiry, which is to prevent the
government from using a private actor to accomplish
unconstitutional goals. Because the Sixth Circuit has
deviated from the rule in Blum and many of the other
Circuits’ interpretation of Blum, and because the
question of when a private contractor should be deemed
a state actor is a matter of national significance, the
Court should grant certiorari to resolve the now
conflicting standards and to ensure the uniform
resolution of potential constitutional violations.
OPINIONS BELOW
The Sixth Circuit’s opinion is unreported and
reproduced at App. 1-26, and its order denying
Snodgrass-King’s petition for panel rehearing and
rehearing en banc is unreported and reproduced at
App. 86-87. The district court’s order granting
DentaQuest’s Motion for Judgment as a Matter of Law
is reported at 295 F. Supp. 3d 843 and reproduced at
App. 27-85.

4
JURISDICTION
The Sixth Circuit’s judgment became final on
August 29, 2019, when it denied Snodgrass-King’s
petition for panel rehearing and rehearing en banc.
App. 86-87. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
RELEVANT CONSTITUTIONAL & STATUTORY
PROVISIONS
The First Amendment provides, in relevant part:
“Congress shall make no law ... abridging the freedom
of speech ... or the right of the people ... to petition the
Government for a redress of grievances.” U.S. Const.
amend. I.
42 U.S.C. § 1983 provides, in relevant part: “Every
person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State ... subjects,
or causes to be subjected, any citizen of the United
States ... to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall
be liable to the party injured in an action at law....”
STATEMENT OF THE CASE
A. Factual Background and Trial
1. Snodgrass-King operates a group of five multispecialty pediatric dentistry locations in the Nashville,
Tennessee area. (App. 29). As relevant to this case,
Tennessee’s Medicaid program, referred to as
TennCare, provides dental services to indigent and
special needs children. (App. 2-3). Rather than
administering the program itself, the dental portion of

5
TennCare is wholly run by a single, statewide private
company, a so-called dental benefits manager (“DBM”).
(App. 2). The DBM runs all aspects of TennCare’s
dental program and is granted the authority and
responsibility for doing so through a contract with
TennCare. In exchange for running TennCare’s dental
program, the DBM receives two types of payment: a
fixed administrative fee based on the number of eligible
TennCare enrollees, and a potentially huge bonus
annually based on the total amount of money the DBM
saves from the amount that was budgeted for the
dental portion of the TennCare program. (R. 478-11,
PID# 14310-12).
2. One aspect of the DBM’s job is contracting with
a network of dentists who will be entitled to treat
TennCare children for reimbursement. If the DBM
does not include a dental provider in its network, that
dental provider cannot treat TennCare children for
reimbursement in the State of Tennessee. (App. 2-3).
From 1994 to 2003, and then again from 2009 until the
exclusion at issue in this case in 2013, the TennCare
benefits manager contracted with Snodgrass-King to
provide dental care. (App. 2-3). In 2013, however, after
being awarded the contract to serve as the DBM,
DentaQuest, at the direction of TennCare, excluded
Snodgrass-King from its network because of SnodgrassKing’s past political speech against TennCare and
DentaQuest.
3. This was not the first time that DentaQuest and
TennCare worked together to harm their common
enemy, Snodgrass-King. In 2003, after Snodgrass-King
raised issues with the administration of the TennCare

6
program that caused TennCare political difficulties, a
former corporate iteration of DentaQuest that was then
serving as the DBM terminated Snodgrass-King from
TennCare without cause. (App 31-33). In 2008
litigation related to that termination, Snodgrass-King
learned that DentaQuest terminated Snodgrass-King
because TennCare secretly pressured DentaQuest to do
so. (App. 33-34). The 2008 litigation ended with a
settlement agreement that reinstated Snodgrass-King’s
membership in the TennCare network and provided for
DentaQuest’s payment of settlement proceeds to two
dental schools. (App. 35-36).
In 2009, before the ink on the aforementioned
settlement was dry, TennCare and its long-standing
dental director, Dr. James Gillcrist (“Gillcrist”),
initiated efforts to undermine the 2008 settlement.
Specifically, shortly after becoming aware of the
settlement, TennCare covertly urged DentaQuest to
delay the process of reinstating Snodgrass-King into
the TennCare network. (App. 35-36). During the delay,
Gillcrist and TennCare developed and instituted a
purportedly statewide policy that only affected one
provider, Snodgrass-King, and that was described by
DentaQuest as “a policy directly related to SnodgrassKing” that was “designed to keep him [Snodgrass-King]
out [of TennCare] or we [DentaQuest] incur penalties.”
(App. 36). TennCare’s sham policy against SnodgrassKing resulted in a second lawsuit, which was filed in
2010. (App. 37-38).
By the time the second lawsuit settled, DentaQuest
had lost a competitive bidding process and was no
longer the DBM, and Snodgrass-King remained in

7
TennCare throughout the time that the new DBM was
under contract with TennCare. (App. 38).
4. By 2012, Gillcrist and TennCare had decided to
replace the new DBM that was allowing SnodgrassKing to participate in the program. In December 2012,
TennCare invited DentaQuest officials to a closed-door
meeting with Gillcrist and Wendy Long (“Long”),
TennCare’s medical director, to discuss their intentions
regarding the new TennCare contract. (App. 6).
The contract being discussed at the December 2012
meeting was one that DentaQuest “absolutely” wanted
to get. (R. 404, PID# 11629-34). First, TennCare told
DentaQuest that one reason for replacing the thenDBM was that it would “let anyone” into the “network.”
(App. 44). Then, while discussing this new,
multimillion-dollar contract, Gillcrist and Long made
it clear that DentaQuest needed to “keep [SnodgrassKing] out” of the program. (App. 6-7).
The jury did not have to make a credibility
determination regarding TennCare’s “keep out”
directive because it was evidenced by the plain
language of DentaQuest emails that repeatedly
discussed TennCare’s “position” from right after the
December 2012 meeting until after DentaQuest won
the TennCare contract and began implementing the
directive in May 2013:
! December 20, 2012: Cheryl Polmatier – a
DentaQuest employee – documents
TennCare’s directive shortly after the
December meeting.

8
“[W]e can have an internal discussion based
upon concerns that Todd, Mark and Bob [of
DentaQuest and who met with TennCare]
shared about the State’s position on large
groups, Snodgrass and others that we need
to ‘keep out’ of the network.” (App. 6).
! December 27, 2012: Polmatier reiterates
that the directive to keep Snodgrass-King out
came from TennCare.
“There are certain providers and large
provider groups that TennCare would
prefer that we not have in our
network....Let me know who knows which
offices (besides Snodgrass)....” (App. 7).
! January 2, 2013: A December 2012 meeting
participant reviews a prior Snodgrass
settlement as part of implementing the
State’s directive.
“Also, Ron has sent me [Bob Lynn, a December
2012 meeting participant,] the Snodgrass
settlement and I need to review to make
sure we don’t have problems with his
settlement language.” (App. 7).
! January 8, 2013: Polmatier documents
DentaQuest’s intent to follow TennCare’s
directive to exclude Snodgrass-King.
“If we wanted to amend any CoverKids
provider, with the exception of Snodgrass
(33 providers), we’d be amending

9
approximately 720 unique providers to
participate in TennCare....But if we’re going to
amend the entire CK network, everyone but
Snodgrass, I think it wouldn’t hurt to start
now....
[W]e don’t know who the other providers
are specifically that the State is not
interested in....If we want to take our
time...then we should await...any further
information from the state/Gilcrist (sic) on
who they don’t want to work with.” (App.
41-42).
! January 23, 2013: TennCare’s directive
becomes a DentaQuest company goal, right
behind winning the TennCare contract.
“Network Goals:
! Win the TennCare RFP
! Amend or Recontract a right-sized
network for TennCare
" Keep Dr. Snodgrass out of the
network” (App. 9).
! February 5, 2013: DentaQuest states why
TennCare was terminating the previous
DBM, Delta Dental, and stresses the
importance of both obtaining the TennCare
contract and following TennCare’s network
instructions in order to do so.

10
“State is very unhappy with Delta– said
that they let anyone in the network and do
not manage the network (This is where we
can shine)…This RFP [for the TennCare
Contract] is a big deal to DQ – one that we
must win back.”
“...[N]eed to win! If we win we hit our
numbers for 2013.” (App. 44).
! May 2, 2013: Two days after winning the
TennCare contract, DentaQuest implements
TennCare’s directive, going so far as to say
that the only issue with a potential network
plan is that it would include Snodgrass-King
in the network.
“What do you think about the following
[selection] process [describes process]...The
only problem is that we’d have to figure
out a way to justify excluding Snodgrass
due to the fact that he would be allowed to
stay in the network using this criteria...we
may need to get a little more creative.”
(App. 10).
5. These internal emails about TennCare’s directive
were not contradicted by the rules and analyses
DentaQuest used to build its network. Indeed, as
shown by DentaQuest’s internal network documents
and Snodgrass-King’s expert witness, because
Snodgrass-King provided efficient and high-quality
care, it was undisputed that Snodgrass-King should
have been included in the TennCare network under the
quality and efficiency measures that otherwise were

11
used by DentaQuest to select which providers to
include. (App. 13-14; App. 51-54).
6. Recognizing that its own analyses did not justify
excluding Snodgrass-King, DentaQuest’s “creative”
solution was to simply declare, after the lawsuit was
initiated, that Snodgrass-King was excluded because it
was a “large provider,” a reason not found in the
written network selection policy that it contractually
was required to follow and that it sent to providers.
(App. 13-14; 50-51). In fact, even though DentaQuest’s
selection criteria were required to be in writing by the
TennCare contract, there was no documentation or
evidence submitted at trial to support the validity or
existence of this so-called “Large Provider Rule,” as
DentaQuest referred to it. (App. 12). What is more,
DentaQuest admitted at trial that of the hundreds and
hundreds of dentists who applied for inclusion in
TennCare, Snodgrass-King was the only provider in
the State excluded by the purported “Large Provider
Rule.” (App. 12).
7. At trial, Snodgrass-King presented evidence of its
past disputes with TennCare and DentaQuest, the
emails described above demonstrating that TennCare
had instructed DentaQuest to exclude Snodgrass-King
from participation in TennCare, proof of the pretextual
nature of the so called “Large Provider Rule,” and the
lack of any medical reason for the exclusion.
Snodgrass-King also presented evidence that TennCare
still had leverage over DentaQuest if it did not carry
out its directive – it could cancel the TennCare contract
at any time for any reason. (R. 478-13, PID# 14313).

12
In contrast, DentaQuest offered no testimony from
Gillcrist, Long, or any other TennCare or DentaQuest
employee who attended the December 2012 meeting to
rebut the plain language of the emails stating that
TennCare told DentaQuest to “keep out” SnodgrassKing.
The jury was instructed that DentaQuest could be
found to have acted “under color of state law,” i.e.,
engaged in “state action,” if the jury found that
TennCare had “coerced or significantly encouraged” the
exclusion of Snodgrass-King from the program. (App.
24-25). The jury determined just that, returning a
verdict in favor of Snodgrass-King and awarding $7.4
million in compensatory damages and $14.8 million in
punitive damages. DentaQuest then filed a Motion for
Judgment as a Matter of Law seeking to overturn the
jury verdict.
B. The District Court Finds No State Action.
1. The district court had subject matter jurisdiction
over this case pursuant to 28 U.S.C. § 1331. The
district court granted DentaQuest’s Motion for
Judgment as a Matter of Law and vacated the jury
verdict solely on the issue of state action. (App. 54-66).
In so doing, the district court ignored the plain
language of the December 20, 2012 “keep out” email, as
well as the context in which TennCare gave that
directive – while DentaQuest was trying to win the
important contract – and simply declared that there
was no “direct or circumstantial evidence to link the
‘keep out’ phrase [or] other equivalent language to
TennCare.” (App. 62-63).

13
The reason that the district court gave for this
conclusion was that the Sixth Circuit Court had held
that a financial incentive did not establish significant
encouragement, and, thus, financial incentives
categorically are never relevant to the state action
inquiry. (App. 63). In this regard, the district court
relied on Campbell v. PMI Food Equipment Group,
Inc., 509 F.3d 776 (6th Cir. 2007). There is no
precedent from this Court that endorses such a
categorical rule.
The district court further determined that, to
establish coercion or significant encouragement,
Snodgrass-King had to show that TennCare and
DentaQuest were “intimately involved” at the time
DentaQuest ultimately notified Snodgrass-King of
their exclusion in 2013. (App. 65-66). However, nothing
about the gap in time between the December 2012
TennCare-DentaQuest decision to exclude SnodgrassKing from TennCare and DentaQuest’s notifying
Snodgrass-King of that decision justified rejecting the
jury’s verdict. Indeed, the district court even admitted
that the only reason DentaQuest gave for the exclusion
– “Large Provider Rule” – was pretextual and
unsupported by any evidence. (App. 46).
C. The Sixth Circuit Affirms, Holding that
DentaQuest Did Not Engage in State
Action.
1. Snodgrass-King appealed, and the Sixth Circuit
had appellate jurisdiction under 28 U.S.C. § 1291. The
Sixth Circuit affirmed the judgment of the district
court in a split, 2-1 decision.

14
In concluding that there was no state action, the
majority did not deny that the emails above showed
TennCare had instructed DentaQuest to exclude
Snodgrass-King while discussing the possibility of
DentaQuest obtaining a multimillion-dollar contract.
(App. 19-20). Nor did it deny that the jury was correctly
instructed, in language requested by DentaQuest and
that state action could be found if the jury believed
there was “coercion or significant encouragement.”
Yet the majority held that no reasonable jury could
find that the test for state action was met. In so
holding, the majority stated that Snodgrass-King’s
claims failed because DentaQuest was not “required”
by the State to exclude Snodgrass-King from a
government program, but instead made a “free-will
choice.” (App. 20, 22). The majority reached that
conclusion by adding to the state action test a number
of “requirements” from Sixth Circuit cases that run
contrary to the Supreme Court’s “significant
encouragement” standard set forth in Blum as well as
the application of that standard by other Circuits.
(App. 19-23).
D. Circuit Judge Ralph B. Guy, Jr. Dissents.
1. Circuit Judge Guy dissented from the majority’s
decision. Judge Guy determined that the district court
and Sixth Circuit majority did not properly apply the
deferential standard of review of a jury’s verdict.
Instead, he concluded, as the district court had at
summary judgment, that a reasonable inference could
be drawn from DentaQuest’s internal emails that
TennCare “covertly pressured or provided significant
encouragement to [DentaQuest] to formulate its

15
provider network in such a way as to exclude
[Snodgrass-King].” (App. 25).
Judge Guy reasoned that:
Ultimately, the evidence detailed by the district
court and the parties on appeal is sufficient to
support a reasonable inference that TennCare
pressured DentaQuest in the past, said it
wanted to replace [DentaQuest’s predecessor] in
part because it “let anyone into the network,”
and conveyed in a closed door pre-bid meeting
that DentaQuest was to do whatever was
necessary to keep Snodgrass-King out of the
coveted contract. Although more than one
reasonable inference may be drawn from
DentaQuest’s emails, a reasonable jury could
also conclude that DentaQuest understood
TennCare’s position vis-à-vis Snodgrass-King;
made pre-bid plans to exclude Snodgrass-King
from any future network at TennCare’s request;
and, after being awarded a contract that could
be terminated for any reason, excluded
Snodgrass-King under circumstances that a jury
could find were pretextual. (App. 25-26).
E. Proceedings after decision.
1. Snodgrass-King timely moved for rehearing en
banc. On August 29, 2019, the Sixth Circuit rejected
the motion for rehearing. (App. 86-87). On November
25, 2019, Snodgrass-King timely filed this petition for
certiorari. See SUP. CT. R. 13(1), (3) (petition for
certiorari must be filed within 90 days of the denial of
a petition for rehearing).

16
REASONS FOR GRANTING THE WRIT
I. The Sixth Circuit’s Decision Improperly
Abrogates the “Significant Encouragement”
Portion of the Blum Standard and Creates
Varying Standards for State Action Amongst
the Circuits.
Under Blum, a private contractor’s actions
constitute “state action” if the State has “provided such
significant encouragement, either overt or covert,
that the choice must in law be deemed to be that of the
state.” Blum, 457 U.S. at 1004 (emphasis added).
While Blum set forth a standard for state action, it also
cautioned that “the factual setting of each case will be
significant.” Id. This is consistent with this Court’s
repeated statement that the state action question is a
“necessarily fact-bound inquiry.” Lugar v. Edmondson
Oil Co., Inc. 457 U.S. 922, 939 (1982); Burton v.
Wilmington Parking Auth., 365 U.S. 715, 722 (1961)
(“Only by sifting facts and weighing circumstances can
the nonobvious involvement of the State in private
conduct be attributed its true significance.”).
Since Blum, this Court consistently has included
“significant encouragement” as an independent
circumstance that can warrant a finding of state action,
specifically delineating “significant encouragement” as
something different than the “coercive power” portion
of the test. See Brentwood Academy v. Tenn. Secondary
School Athletic Ass’n, 531 U.S. 288, 296 (2001); see also
San Fancisco Arts & Athletics, Inc. v. U.S. Olympic
Committee, 483 U.S. 522, 546-47 (1987) (no state action
where there was “no evidence that the Federal
Government “coerced or encouraged” the private action

17
at issue”). For instance, when dealing with the state
action question in the Fourth Amendment context, the
Court stated that “the fact that the Government has
not compelled a private party to perform a search does
not, by itself, establish that the search is a private
one.” Skinner v. Railway Labor Executives’ Ass’n, 489
U.S. 602, 615 (1989) (emphasis added). Thus, under
this Court’s precedents it is exceedingly clear that
government encouragement of a private decision alone,
if significant, can make the decision state action.
A majority of the Circuits have interpreted Blum’s
language to mean that government encouragement
alone can render a private decision to be state action.
Some Circuits, like the Second, Third, Fourth, Ninth,
and Tenth, have interpreted the “significant
encouragement” standard to require mere
“encouragement,” “facilitation,” “direction,” or
“endorsement” of a private decision. See Roberts v.
AT&T Mobility LLC, 877 F.3d 833, 842 (9th Cir. 2017);
Wasatch Equality v. Alta Ski Lifts Co., 820 F.3d 381,
389-90 (10th Cir. 2016); Harvey v. Plains Tp. Police
Dept., 635 F.3d 606, 609-10 (3d Cir. 2011); Tancredi v.
Metropolitan Life Ins. Co., 316 F.3d 308, 313 (2d Cir.
2003); Mentalovos v. Anderson, 249 F.3d 301, 318 (4th
Cir. 2001). The First Circuit has found that the
“significant encouragement” test can be met with a
showing of “strong encouragement.” Sanchez v.
Pereira-Castillo, 590 F.3d 31, 51-52 (1st Cir. 2009).
And other Circuits, like the Fifth and Eighth, simply
have looked for “significant encouragement,” without
giving the term any additional interpretation. See
Chernin v. Lyng, 874 F.2d 501, 507-08 (8th Cir. 1989);

18
Howard Gault Co. v. Texas Rural Legal Aid, Inc., 848
F.2d 544, 555 (5th Cir. 1988).
Unlike the above Circuits, the Sixth Circuit
majority in this case failed to interpret the “significant
encouragement” portion of Blum as an independent
basis for state action, instead requiring a much higher
standard of conduct. The Sixth Circuit substituted for
“significant encouragement” a requirement that
TennCare have “participated in the [private actor’s]
decision making.” (App. 18) (emphasis added). It also
said there was nothing to show that the state
“required [DentaQuest] to take any...actions against
Snodgrass,” (App. 22) (emphasis added). Finally, it
added language that TennCare did not deprive
DentaQuest of its ability to make a “free-will choice.”
(App. 20) (emphasis added). Such language did not
originate with the Sixth Circuit majority in this case,
it was taken from multiple Sixth Circuit cases that
together demonstrate the continued narrowing of the
Blum standard in the Sixth Circuit. See Wilcher v. City
of Akron, 498 F.3d 516 (6th Cir. 2007) (origin of the
“participated in” language); Campbell v. PMI Food
Equip. Grp., Inc., 509 F.3d 776, 784 (6th Cir. 2007)
(origin of the “required” language); S.H.A.R.K. v. Metro
Parks Serving Summit Cnty., 499 F.3d 553, 565 (6th
Cir. 2007) (origin of “free-will” language). While each
of these glosses would independently create state
action, the Sixth Circuit majority listed these glosses as
the floor for state action, not the ceiling. In doing so, it
ignored Blum’s inclusion of “significant
encouragement” as a separate, sufficient circumstance.

19
The Sixth Circuit majority further demonstrated its
neglect of the “significant encouragement” portion of
Blum through its conclusion that even though the
government’s “keep out” directive was given
simultaneously with the incentive of what the Sixth
Circuit majority called a “lucrative contract,” such an
incentive simply was “not sufficient to find state
action,” as a matter of law. (App. 22). Again, the Sixth
Circuit majority’s reasoning in this regard relied upon
prior Sixth Circuit precedent. See Wolotsky v. Huhn,
960 F.2d 1331, 1335 (6th Cir. 1992). Yet, such
reasoning is directly contrary to other Circuits’
recognition that “significant encouragement” under
Blum can include incentives or economic pressure. See
Chernin v. Lyng, 874 F.2d 501, 507-08 (8th Cir. 1989)
(economic pressure placed on private actor by USDA
sufficient to turn employee termination by private actor
into state action).
At bottom, the Sixth Circuit majority’s decision
abrogates the “significant encouragement” portion of
Blum, instead apparently requiring evidence that the
government “required” the decision, took away a
private actor’s “free-will,” or actually “participated in
the [private actor’s] decision making process.” The
overly-strict standard employed by the Sixth Circuit
majority here is not, however, exclusive to this case.
Instead, the standard was drawn from a line of
published Sixth Circuit decisions.
Yet, the plain language of Blum and numerous
decisions from other Circuits indicate that “significant
encouragement” is a standalone circumstance that can
create state action just like an action that is “required”

20
by the government. For instance, the Third Circuit has
specifically reversed a district court where the jury was
instructed that an “order” from the government was
required to create state action. See Harvey v. Plains
Tp. Police Dept., 635 F.3d 606, 610-11 (3d Cir. 2011)
(where policeman “encouraged” repossession, it was
reversible error to instruct jury that a direct order was
required).
And, the fact that a private actor makes a “free-will
choice” also cannot be dispositive because a
“significant[ly] encourage[ed]” choice is still a free-will
choice; it is merely informed by the encouragement
given. Recognition that a “free-will choice” still can be
state action is readily apparent from the other Circuit
decisions cited above.
Finally, that the private actor makes the final
decision (i.e., TennCare was not in the room when the
decision to exclude Snodgrass-King ultimately was
made), is in no way dispositive of whether state action
exists. This Court has stated as much in describing the
“typical case raising a state-action issue [in which] a
private party has taken the decisive step that caused
the harm to the plaintiff, and the question is whether
the State was sufficiently involved to treat the decisive
conduct as state action.” National Collegiate Athletic
Ass’n v. Tarkanian, 488 U.S. 179, 192 (1988).
In plain language, this Court in Blum stated that
“significant encouragement” can be sufficient to deem
a private contractor’s actions to be those of the
government. As demonstrated above, the Sixth Circuit
majority’s decision, and the Sixth Circuit precedent it
relied upon in reaching such decision, departs from

21
that standard and runs contrary to decisions from
numerous other Circuits by substituting “significant
encouragement” for other, more stringent
circumstances. In other words, the bar for state action
has been set too high in the Sixth Circuit.
Constitutional rights, especially freedom from the
government’s use of a private actors to retaliate against
free speech, should not vary based on the part of the
country in which a person resides. Nor should such
important rights be rendered uncertain or malleable by
the existence of varying standards. As a result, this
Court should grant Snodgrass-King’s petition and
review the district court’s decision in a manner
consistent with Blum and the majority of Circuits.
CONCLUSION
This Court should grant Snodgrass-King’s petition
for a writ of certiorari.
Respectfully submitted,
Robert J. Walker
Luther T. Munford
BUTLER SNOW LLP
Counsel of Record
The Pinnacle at
BUTLER SNOW LLP
1020 Highland Colony Parkway
Symphony Place
150 Third Avenue South
Suite 1400
Ridgeland, Mississippi 39157
Suite 1600
Nashville, Tennessee 37201 (601) 948-5711
(615) 651-6700
luther.munford@butlersnow.com
bob.walker@butlersnow.com
Counsel for Petitioners
Dated: November 25, 2019

